No. 19-123

In The

Supreme Court of the United States
____________
SHARONELL FULTON, ET AL.,
Petitioners,
V.
CITY OF PHILADELPHIA, PENNSYLVANIA, ET AL.,
____________

Respondents.

On Writ of Certiorari to the United States
Court of Appeals for the Third Circuit
____________
BRIEF OF FORMER SERVICE SECRETARIES AND THE MODERN
MILITARY ASSOCIATION OF AMERICA AS AMICI CURIAE SUPPORTING
RESPONDENTS
____________
CERTIFICATE OF SERVICE
I, Michael E. Bern, counsel for Amici Curiae Secretaries Ray Mabus, Deborah
Lee James, and Eric Fanning, and the Modern Military Association of America, and
a member of the Bar of this Court, hereby certify that on the 20th day of August,
2020, I caused to be served three (3) copies of the Brief of Former Service
Secretaries and the Modern Military Association of America as Amici Curiae
Supporting Respondents in the above-referenced case by first-class mail, postage
prepaid, upon the counsel for Petitioners and Respondents as listed below:

1

Mark L. Rienzi
The Becket Fund for Religious Liberty
1200 New Hampshire Ave., NW
Suite 700
Washington, DC 20036
(202) 955-0095
mrienzi@becketlaw.org
Counsel for Petitioners
Neal Kumar Katyal
Hogan Lovells US LLP
555 Thirteenth Street, NW
Washington, DC 20004
(202) 637-5528
neal.katyal@hoganlovells.com
Counsel for Respondents City of Philadelphia,
Department of Human Services for the City of Philadelphia,
and Philadelphia Commission on Human Relations
Leslie Cooper
American Civil Liberties Union
125 Broad Street
New York, NY 10004
(212) 519-7815
lcooper@aclu.org
Counsel for Intervenor-Respondents Support Center for Child Advocates
and Philadelphia Family Pride
Additionally, in accordance with Supreme Court Rule 29.3, an electronic
version of the Brief of Former Service Secretaries and the Modern Military
Association of America as Amici Curiae Supporting Respondents was transmitted to
the above-listed counsel at the referenced email addresses.

2

I further certify that all parties required to be served have been served.

By
MICHAEL E. BERN
Counsel of Record
LATHAM & WATKINS LLP
555 11th Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2200
michael.bern@lw.com
Counsel for Amici Curiae Secretaries
Ray Mabus, Deborah Lee James, and
Eric Fanning, and the Modern
Military Association of America

3

